Executive Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing ServicesGrants to the Spokane County Sheriff's DepartmentWashington
GR-90-00-016June 2000Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Spokane County Sheriff's Department (SCSD), Washington.  The purpose of the grants is to enhance community policing.  The SCSD was awarded a total of $2,261,250 to hire 30 new deputy sheriffs and redeploy the equivalent of 0.6 existing full-time deputy sheriffs from administrative duties to community policing.

We reviewed the SCSD's compliance with eight essential grant conditions.  We found the grantee's budgeting, hiring, redeployment, retention plan, and implementation of community policing to be acceptable.  However, we found weaknesses in three other areas as identified below.  As a result, we question $3,437.1

The local matching funds requirement for the MORE 95 grant was not met because the SCSD requested reimbursement that exceeded the 75 percent maximum of allowable costs resulting in $2,604 in questioned costs.
 
	The SCSD requested reimbursement of $11,248 for the MORE 95 grant.  However, documents supporting the expenditure totaled only $10,415 resulting in unsupported costs of $833.

	Several status reports were either not accurate, not timely, or not filed.  

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in 
Appendix I.



Footnote
1.   The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.